February 13, 2020
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, DC 20002

Re: Adkins and Maxim HealthCare Services, Inc. v. Collens, No. 19-646
Dear Clerk:

I certify that on February 13, 2020, I caused service of copies of the respondent’s
Brief in Opposition to the Petition for Certiorari to be made pursuant to Supreme Court
Rule 29 by both emailing a copy of the Brief in Opposition and having three printed copies
hand-delivered to counsel for Petitioner:

Gregory Fisher
Davis Wright Tremaine LLP
188 West Northern Lights Blvd.

Suite 1100

Anchorage, AK 99503

gregoryfisher@dwt.com
Very truly yours,
SH ONlowr'
Susan Orlansky

Of counsel to Reeves Amodio LLC
500 L Street, Suite 300
Anchorage, AK 99501

(907) 222-7117
susano@reevesamodio.com
Counsel for Respondent
